     Department of Homeland Security

     ��������������������������


  North Dakota’s Management of Homeland Security 

       Grant Program Awards for Fiscal Years 

                 2010 Through 2012 





OIG-14-90                                  May 2014

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      MAY 2 2014


MEMORANDUM FOR:	             Brian E. Kamoie
                             Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:	                       Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:	                    North Dakota’s Management of Homeland Security Grant
                             Program Awards for Fiscal Years 2010 Through 2012

Attached for your action is our final report, North Dakota’s Management of Homeland
Security Grant Program Awards for Fiscal Years 2010 Through 2012. We incorporated
the formal comments from the Office of Policy, Program Analysis and International
Affairs and the North Dakota Department of Emergency Services in the final report.

The report contains 10 recommendations aimed at improving the overall effectiveness
of North Dakota’s management of Homeland Security Grant Program funds. Your office
concurred with all of the recommendations. Based on information provided in your
response to the draft report, we consider recommendations 2 through 10 resolved and
open, and recommendation 1 resolved and closed. Once your office has fully
implemented the recommendations, please submit a formal closeout letter to us within
30 days so that we may close the recommendations. The memorandum should be
accompanied by evidence of completion of agreed-upon corrective actions and of the
disposition of any monetary amounts.

Please email a signed PDF copy of all responses and closeout requests to
OIGAuditsFollowup@oig.dhs.gov.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact John E. McCoy, II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
   April 21, 2014

   Ms. Anne L. Richards
   Assistant Inspector General for Audits
   U.S. Department of Homeland Security
   Office of Inspector General, Mail Stop 0305
   245 Murray Lane, SW
   Washington, D.C. 20528

   Dear Ms. Richards:

   Foxx & Company performed an audit of North Dakota’s management of the Department
   of Homeland Security’s State Homeland Security Program grants for fiscal years 2010
   through 2012. The audit was performed in accordance with our Task Order No. TPD-FIG-
   BPA-10-0006, Order No. 0019 dated June 19, 2013. This report presents the results of
   the audit and includes recommendations to help improve North Dakota’s management
   of the audited State Homeland Security Program grants.

   Our audit was conducted in accordance with applicable Government Auditing Standards,
   2011 revision. The audit was a performance audit as defined by Chapter 2 of the
   Standards and included a review and report on program activities with a compliance
   element. Although the audit report comments on costs claimed by North Dakota, we did
   not perform a financial audit, the purpose of which would be to render an opinion on
   North Dakota’s financial statements or the funds claimed in the financial status reports
   and Federal financial reports submitted to the Department of Homeland Security.

   We appreciate the opportunity to have conducted this audit. Should you have any
   questions, or if we can be of any further assistance, please call me at (513) 241-1616.

   Sincerely,




   Foxx & Company
   Cincinnati, Ohio




www.oig.dhs.gov                                                                         OIG-14-90 

                                                 

                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1


   Background ........................................................................................................................ 2


   Results of Audit .................................................................................................................. 2


              State Homeland Security Strategies ...................................................................... 3 

              Recommendation ................................................................................................... 6 

              Management Comments and Auditor Analysis ..................................................... 7 


              Obligations to Subgrantees ………..…………………………………………………………………….. 8 

              Recommendation ................................................................................................... 9 

              Management Comments and Auditor Analysis .................................................... 10 


              Personnel Time Charges ....................................................................................... 10 

              Recommendations ............................................................................................... 11 

              Management Comments and Auditor Analysis ................................................... 12 


              Timeliness of Expenditures .................................................................................. 13 

              Recommendation ................................................................................................. 14 

              Management Comments and Auditor Analysis ................................................... 15 


              Property Management and Accountability ......................................................... 15 

              Recommendations ............................................................................................... 17 

              Management Comments and Auditor Analysis ................................................... 18 


              Subgrantee Monitoring ........................................................................................ 19 

              Recommendations ............................................................................................... 21 

              Management Comments and Auditor Analysis ................................................... 22 


   Appendixes
              Appendix A:           Objectives, Scope, and Methodology .......................................... 24 

              Appendix B:           Management Comments to the Draft Report ............................. 27 

              Appendix C:           Description of the Homeland Security Grant Program ................ 38 

              Appendix D:           North Dakota Department of Emergency Services 

                                    Organization Chart ....................................................................... 39 

              Appendix E:           Threat and Hazard Identification and Risk Assessment ............... 40 


www.oig.dhs.gov                                                                                                                 OIG-14-90

                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


           Appendix F:   Potential Monetary Benefits ………………………………….……………….. 41
           Appendix G:   Report Distribution …………………………………………………………………. 42

   Abbreviations
           CFR            Code of Federal Regulations
           DHS            Department of Homeland Security
           FEMA           Federal Emergency Management Agency
           FY             fiscal year
           HSGP           Homeland Security Grant Program
           MOU            memorandum of understanding
           NDDES          North Dakota Department of Emergency Services
           OIG            Office of Inspector General
           SHSP           State Homeland Security Program
           SPR            state preparedness report
           THIRA          Threat and Hazard Identification and Risk Assessment




www.oig.dhs.gov                                                                  OIG-14-90

                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Executive Summary
   Public Law 110-53, Implementing Recommendations of the 9/11 Commission Act of
   2007, requires the Department of Homeland Security (DHS) Office of Inspector General
   (OIG) to audit individual states’ and territories’ management of State Homeland Security
   Program and Urban Areas Security Initiative grants. This report responds to the
   reporting requirement for North Dakota.

   The audit objectives were to determine whether North Dakota distributed and spent
   State Homeland Security Program grant funds effectively and efficiently, and in
   compliance with applicable Federal laws and regulations. We also addressed the extent
   to which grant funds enhanced North Dakota’s ability to prevent, prepare for, protect
   against, and respond to natural disasters, acts of terrorism, and other manmade
   disasters. The Federal Emergency Management Agency (FEMA) awarded the State
   approximately $14.6 million in State Homeland Security Program grants during fiscal
   years 2010 through 2012.

   In most instances, North Dakota distributed and spent the awards in compliance with
   applicable laws and regulations. However, we identified areas where the State can
   improve its management of the grant funds. Specifically, state homeland security
   strategies did not contain a baseline for measuring improvements or target dates as to
   when objectives would be achieved, and obligations of grant funds to subgrantees did
   not always meet the Federal time requirements. Personnel time charges were not
   adequately supported, overall grant expenditures were not timely, and subgrantee
   property management did not always comply with Federal requirements. Additionally,
   subgrantee monitoring procedures needed improvements.

   We have made 10 recommendations that call for FEMA to initiate improvements, which,
   if implemented, should strengthen grant program management, performance, and
   oversight. FEMA concurred with all of the recommendations. Written comments to the
   draft report are incorporated as appropriate and are included in appendix B




www.oig.dhs.gov                               1                                       OIG-14-90

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   DHS provides Federal funding through the Homeland Security Grant Program (HSGP) to
   help state and local agencies enhance capabilities to prevent, deter, respond to, and
   recover from terrorist attacks, major disasters, and other emergencies. Within DHS,
   FEMA is responsible for administering the HSGP. FEMA supports preparedness by
   developing policies, ensuring that adequate plans are in place and validated, defining
   capabilities required to address threats, providing resources and technical assistance to
   states and U.S. territories, and synchronizing preparedness efforts throughout the
   Nation. Appendix C contains a detailed description of the interrelated grant programs
   that constitute the HSGP.

   North Dakota was awarded approximately $16.3 million in HSGP funds during fiscal
   years (FYs) 2010 through 2012. The $16.3 million included $14.6 million of State
   Homeland Security Program (SHSP) funds that the North Dakota Department of
   Emergency Services (NDDES) awarded to counties, state agencies, and Native American
   tribes. NDDES is responsible for administering the HSGP funds for North Dakota. The
   $16.3 million in HSGP funding consisted of the following:

   Table 1: Homeland Security Grant Program Funding
                               Homeland Security Grant Program
                                     FYs 2010 through 2012

           Funded Activity           FY 2010        FY 2011       FY 2012          Total
   State Homeland Security
                                   $6,613,200       $5,137,205   $2,801,316     $14,551,721
   Program
   Operation Stonegarden             $548,913        $526,949     $499,407       $1,575,269

   Citizen Corps Program             $109,174         $87,348               0     $196,522

   Grand Total                     $7,271,287       $5,751,502   $3,300,723     $16,323,512
    Source: Grant award documents provided by FEMA and NDDES.

   Results of Audit
   In most instances, North Dakota distributed and spent the awards in compliance with
   applicable laws and regulations. However, we identified the following areas where the
   State can improve and enhance its management of SHSP grants:




www.oig.dhs.gov                                 2                                          OIG-14-90

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


       •	   State homeland security strategies
       •	   Obligations to subgrantees
       •	   Personnel time charges
       •	   Timeliness of expenditures
       •	   Property management and accountability
       •	   Subgrantee monitoring

   Improvements in these areas will enhance North Dakota’s effectiveness in the overall
   use of the grant funds to improve preparedness and response capabilities and reduce
   the risk associated with the State’s management of FEMA grant funds.

            State Homeland Security Strategies

            North Dakota homeland security strategies did not provide a sufficient basis to
            measure performance or capability improvements. A North Dakota homeland
            security strategy was issued for FY 2010 and FY 2011. The strategy document
            was updated in FY 2012 but there were no changes to the strategy, making it
            identical to the FY 2011 strategy. The strategies for FYs 2010, 2011, and 2012 did
            contain goals and objectives that could be used in measuring performance.
            However, the strategies did not contain a context (baseline) for measuring
            capability improvements or target dates as to when the objectives would be
            achieved. Without a baseline for measuring improvements or target dates when
            objectives would be achieved, the State could not evaluate the effect of grant
            expenditures on its preparedness and emergency response capabilities.

            Code of Federal Regulations (CFR) Title 44 § 13.40, Monitoring and Reporting
            Program performance, requires that grantees monitor grant and subgrantee
            supported activities to assure that program goals are being achieved. DHS State
            and Urban Area Homeland Security Strategy Guidance on Aligning Strategies
            with the National Preparedness Goal, July 22, 2005, states that an objective sets
            a tangible and measurable target level of performance over time against which
            actual achievement can be compared, including a goal expressed as a
            quantitative standard, value or rate. Therefore, an objective should be:

                   •	 specific, detailed, particular, and focused – helping to identify what is
                      to be achieved and accomplished;
                   •	 measurable – quantifiable, providing a standard for comparison, and
                      identifying a specific achievable result;
                   •	 achievable – the object is not beyond a state, region, jurisdiction, or
                      locality’s ability;

www.oig.dhs.gov                                  3	                                       OIG-14-90

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                  •	 results-oriented – identifies a specific outcome; and
                  •	 time-limited – a target date exists to identify when the objective will
                     be achieved.

           In its FY 2011 Homeland Security Grant Program Guidance and Application Kit,
           FEMA strongly encouraged states and urban areas to update their homeland
           security strategies every two years beginning in 2011. Updates help ensure that
           existing goals and objectives reflect all FEMA mission areas, the National
           Priorities, and implement the whole community approach to emergency
           planning and management. Homeland security strategies should reflect an
           ongoing process of review and refinement as new lessons, priorities, challenges,
           threats, and hazards evolve. DHS strategy guidance states that updated state
           homeland security strategies provide a context for performing the strategic
           exercise of asking “How are we managing our homeland security programs?”
           �
           In April 2012, FEMA required state and local governments receiving FEMA
           preparedness grants to complete a Threat and Hazard Identification and Risk
           Assessment (THIRA) by December 31, 2012. The THIRA provides a
           comprehensive approach for identifying and assessing risks and associated
           impacts, using the core capabilities identified in the National Preparedness Goal.
           In addition to the THIRA, states and territories receiving FEMA preparedness
           grants are required to submit annually a state preparedness report (SPR). FEMA
           officials indicate that THIRA results and the SPR will provide a quantitative
           summary of preparedness. FEMA believes that the THIRA and SPR provide the
           required information in the strategies.

           The NDDES official responsible for completing the strategy acknowledged that
           the goals and objectives did not have timelines for completion. Although the
           strategies contained goals, multiple objectives, and steps to accomplish the
           objectives, the steps for the objectives did not have baselines for measuring
           improvements or target dates. Following are examples of three of nine goals, an
           objective for each goal, and steps for the objective in the 2012 strategy that did
           not have a baseline for measuring improvements or target dates.




www.oig.dhs.gov                                 4	                                       OIG-14-90

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Table 2. Examples of Goals and Objectives in 2012 Strategy 

            Goal                    Objective                                        Steps
    Strengthen           Attain radio communication           Step: Planning Steps:
    interoperable and    interoperability (P25                 • Develop a priority list of State, local and tribal
    operable             Compliant) among Federal,               agencies for analog to digital conversion.
    communications       state, local, and tribal first        • Continue State Interoperable Executive
    capabilities.        responders within North                 Committee
                         Dakota.                               • Conduct survey of P25 communication
                                                                 equipment needs.
                                                               Step: Equipment Steps:
                                                               • Provide conversion equipment based on
                                                                 priority listing.
                                                               • Provide funding for P25 communication
                                                                 equipment shortfalls.
                                                              Step: Test analog to digital conversion through a
                                                              tabletop exercise.
    Develop and          Establish a patient tracking         Step: Develop plans for the long-term tracking of
    enhance health and   system.                              patients following an event which will be
    medical readiness                                         integrated with existing public health and medical
    and preparedness                                          emergency preparedness and response plans.
    capabilities.                                             Step: Ensure that all participating hospitals have
                                                              the capacity to maintain, in negative pressure
                                                              isolation, at least one suspected case of highly
                                                              infectious disease or febrile patient with a
                                                              suspect rash or other symptoms of concern that
                                                              might be developing a highly communicable
                                                              disease.
                                                              Step: Establish reporting systems/mechanisms
                                                              that include hospitals reporting the number of
                                                              patients in isolation, patients discharged against
                                                              medical advice with communicable disease, and
                                                              patients discharged to home that still require
                                                              isolation.
    Provide a fully      Streamline the grant process;        Step: Organizational Steps:
    integrated web-      Track where and how specific          • Create on-line grant program
    based grants         funds are used within                 • Integrate web-based program with current
    management           jurisdictions, counties, or             access database to track what, where, and
    system.              statewide; meet Office of               how funds are being utilized.
                         Domestic Preparedness,                • Create on-line project matrix progress report
                         Biannual Strategy                       for Biannual Strategy Implementation Report.
                         Implementation Report, and            • Create robust reporting tool.
                         Initial Strategy                     Step: Identify technology need to create web-
                         implementation Plan                  based program.
                         requirements; create real-           Step: Train staff and jurisdictional users to utilize
                         time reports through a robust        web-based grant system.
                         report tool.
   Source: FY 2012 state strategy for North Dakota.


www.oig.dhs.gov                                           5                                                  OIG-14-90
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           NDDES also completed the first THIRA which was due December 2012. The
           THIRA contained the required information to:

                  •	 identify threats and hazards;
                  •	 give threats and hazards context (assess vulnerability, how they affect
                     the community);
                  •	 examine core capabilities using the threats and hazards (estimate 

                     consequences, impacts to the community); 

                  •	 set capability targets; and
                  •	 apply the results (use results for planning and preparedness activities to
                     identify a means to deliver target level of capability).

           The information in the THIRA did contain baseline information. The THIRA also
           contained three threats that were not addressed in the 2012 strategy.

           NDDES officials stated that the strategy was intended to be a 5-year plan based
           on continued funding levels. As the funding levels were reduced, the completion
           of the goals and objectives was extended. Because future funding levels were
           unknown, state officials said that estimating projects completions was difficult.

           Without a baseline for measuring improvements or target dates when objectives
           would be achieved, the State did not have a sufficient basis to evaluate the
           accomplishment of goals and objectives during our audit period. It also made it
           difficult to provide a context for performing the strategic exercise of asking “How
           are we managing our homeland security programs?” as set forth in the DHS State
           and Urban Area Homeland Security Strategy Guidance on Aligning Strategies
           with the National Preparedness Goal. The lack of identification of baselines from
           which improvement could be measured impacted the determinations for future
           funding needs. However, with the advent of the THIRA, the issues identified with
           the strategies could be resolved if the State carried over the THIRA procedures
           when preparing its strategies.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Director, North Dakota Department of Emergency Services to:




www.oig.dhs.gov                                    6	                                      OIG-14-90

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendation #1:

           Develop and implement policies and procedures to ensure that:
              •	 strategies contain target dates when objectives would be achieved,
              •	 baselines are identified for the capabilities that will facilitate the
                 measurement of progress toward achieving the goals and objectives, and
              •	 the strategies are consistent with the THIRAs that are required by FEMA.

           Management Comments and Auditor Analysis

           FEMA and State Responses to Recommendation #1: FEMA concurred with the
           recommendation. FEMA has developed a system to help states, territories, and
           urban areas to establish measurable goals and objectives to measure
           improvements in first responder capabilities and statewide preparedness. FEMA
           has developed and is implementing performance assessments that measure
           progress toward achieving the National Preparedness Goal. The FEMA strategy is
           to base assessments on the principles that the Nation needs to understand
           existing risks, use those risks to determine required capabilities, assess current
           capability levels against those requirements, and track its progress in closing
           identified capability gaps.

           FEMA released a consistent methodology for determining risks in the THIRA
           Comprehensive Preparedness Guide 201, Second Edition, in August 2013. The
           guidance details a four-step process jurisdictions can use to achieve desired
           outcomes and capability targets for each of the core capabilities. This approach
           allows jurisdictions to establish capability targets based on the risks it faces.
           Starting on December 31, 2012 states, territories, and urban areas were required
           to submit THIRAs to FEMA. States and territories are also required to annually
           submit SPRs. The THIRA results and SPR identify needs and gaps and the results
           highlight gaps in capability and the progress of grantees in closing gaps over
           time.

           FEMA reports the results of the capability assessments annually in the National
           Preparedness Report. The goals and objectives to measure improvements in first
           responder capabilities and statewide preparedness are addressed by requiring
           states to prepare THIRAs, SPRs, and investment justifications. Strategy updates
           are encouraged but not required as the THIRA, SPR, and investment justifications
           methodology provide the goals and assessment of progress against the goals.
           FEMA provided copies of the North Dakota 2012 SPR and 2013 THIRA which
           supported the system to measure goals and objectives. FEMA requested that the
           recommendation be resolved and closed.
www.oig.dhs.gov                                7	                                       OIG-14-90

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           The State concurred with this recommendation. The State is updating the
           strategy to include reformatting based on core capabilities and THIRA results.
           Target dates and baseline information were not in the strategy but were
           incorporated into grant investment justifications. The updated strategy will also
           include objectives and baseline information.

           Auditor Analysis: The actions taken by FEMA are responsive to the intent of
           recommendation #1. This recommendation is resolved and closed.

           Obligations to Subgrantees

           NDDES did not obligate at least 80 percent of the FY 2011 and 2012 SHSP funds
           to local units of government within 45 days. NDDES did obligate the required
           percentage of SHSP funds to local governments for FY 2010 funds. As a result,
           NDDES was not in compliance with the law.

           According to FEMA Homeland Security Grant Program Guidance, state
           administrative agencies must obligate and make available to local government
           units at least 80 percent of SHSP and Urban Areas Security Initiative grant funds
           within 45 days of FEMA’s award date. The guidance states that local
           governments have an important role in protecting the American people from
           terrorist threats. The obligation must include the following requirements:

                  1.	 There must be some action to establish a firm commitment on the part of
                      the awarding entity.
                  2.	 The action must be unconditional on the part of the awarding entity (i.e.,
                      no contingencies for availability of funds, and all special conditions
                      prohibiting obligation, expenditure, and drawdown must be removed).
                  3.	 There must be documentary evidence of the commitment.
                  4.	 The award terms must be communicated to the official grantee.

           The FEMA Guidance states that the state may retain some of the allocation of
           grant funds for expenditures made by the state on behalf of the local unit of
           government or urban area jurisdiction. This may occur only with the written
           consent of the local unit of government or urban area jurisdiction. The written
           consent must specify the amount of funds to be retained and the intended use
           of funds.

           NDDES obligated SHSP funds to local governments and other subgrantees
           through grant awards to local governments and law enforcement organizations.
           Memorandums of understanding (MOUs) were also made with counties. As

www.oig.dhs.gov                                   8	                                       OIG-14-90

                                  OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           stated previously, NDDES did not obligate at least 80 percent of FEMA’s FY 2011
           and FY 2012 SHSP awards to local governments within 45 days. Table 3 shows
           the SHSP amount awarded by FEMA and the total amounts NDDES obligated to
           local governments for FYs 2011 and 2012 within the 45 day timeframes.

           Table 3: FYs 2011 and 2012 SHSP Grant Awards to Local Governments
                                                   80% Of             Obligated to Locals
            Fiscal      Award      SHSP Award                     Government  Within 45 Days
                                                    Award
             Year        Date        Amount
                                                   Amount          Amount           Percent
           2011          9/7/11      $5,137,205       $4,109,764            $0         0%
           2012       8/28/12      $2,801,316  $2,241,053      $500,000               18%
           Source: Grant award and MOU documents provided by NDDES.

           The following table shows a summary of the range of subgrantee agreement
           dates for FYs 2011 and 2012 that exceeded the 45 day timeframe.

           Table 4: FYs 2011 and 2012 Grant Awards to Local Governments Not Within 45 Days
                  Fiscal Year      Number of Awards       Range of Awards    Amount of Awards
                    Awards           After 45 Days         After 45 Days
                     2011                 154                 75-622             $3,884,533
                   2012               147               46-155                   $1,823,088
           Source: Grant award and MOU documents provided by NDDES.

           NDDES used an extensive process to provide awards to subgrantees, which
           delayed the awards to local governments beyond the 45 day required
           timeframe. This process involved awards for specific use of SHSP funds with
           award amounts being for the purchase of specific equipment or other specific
           purposes. The subgrantees were required to provide specific information to
           NDDES on the use of funds to receive awards. When the 45 day requirement was
           not met, local governments and first responders were not provided Federal
           funding in a timely manner.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           FEMA, require the Director, North Dakota Department of Emergency Services to:




www.oig.dhs.gov                                   9                                           OIG-14-90

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendation #2:

           Review the current procedures to award SHSP funds to local governments to
           streamline the process to ensure that funds are available to subgrantees in a
           timely manner.

           Management Comments and Auditor Analysis

           FEMA and State Responses to Recommendation #2: FEMA concurred with the
           recommendation. FEMA will require the Director of NDDES to review the current
           procedures to award SHSP funds to local governments to identify opportunities
           to streamline the process and ensure funds are available in a timely manner.
           FEMA requested that the recommendation be considered resolved and open
           until the actions are implemented, with an estimated completion date of
           September 5, 2014.

           The State concurred with the recommendation. The State said that table 3 for
           FY 2011 should show $821,953 that was obligated for an MOU that was signed
           and executed within 45 days for regional funding. The State said that the non-
           regional awards in many cases were not signed by subgrantees within 45 days.
           To ensure that the 45 day requirement is met in the future, applicants will apply
           before the State receives the Federal award. This will allow the State time to
           issue subgrantee awards within 45 days. For applications that require an
           environmental and historic review, which the State is not able to submit to DHS
           until after the Federal grant is received, NDDES will issue a letter to the
           subgrantees asking them to sign and accept funding prior to the end of the 45
           day period. The State does not agree that 45 days is sufficient time to complete
           the award process and believes the requirement should be reviewed and
           updated considering it is several years old.

           Auditor Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation #2. The recommendation is resolved will remain open
           until the proposed corrective action is fully implemented. The $821,953 MOU
           indicated by the State was not signed within 45 days of the grant award and
           therefore table 3 was not changed.

           Personnel Time Charges

           Personnel time charges for FY 2010 SHSP funds were not supported by activity
           reports or time sheets which indicated that personnel had worked on grant
           projects or activities. Although the monthly time sheets for employees contained

www.oig.dhs.gov                                10                                       OIG-14-90
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           percentages for time worked on grants, these percentages were directed by
           NDDES officials. The officials reviewed each individual’s job duties and
           determined what percentages of their duties were eligible under homeland
           security activities. There was no verification made that these were the actual
           hours spent by employees working on particular grants. Because there was no
           assurance that the time charged was spent on allowable grant activities, the
           $686,710 charged to the FY 2010 SHSP grant was questioned. Only FY 2010 funds
           were expended on personnel costs. No FY 2011 or FY 2012 funds have been
           spent on personnel costs.

           According to 2 CFR § 225, Cost Principles for State, Local, and Indian Tribal
           Governments, when employees work on multiple activities or cost objectives, a
           distribution of their salaries or wages must be supported by personnel activity
           reports or timesheets. Personnel activity reports must reflect an after-the-fact
           distribution of the actual activity and must account for the total activity for each
           employee. In addition, they must be prepared at least monthly, and must be
           signed by the employee.

           NDDES employee time charges were reported on timesheets that recorded only
           hours worked. These timesheets did not indicate the specific hours worked on
           SHSP grants or other activities. The State did not require individual staff to
           prepare timesheets identifying the time spent on each grant. To determine the
           amounts charged, a percentage determined by NDDES management officials was
           applied to individual employees’ salaries. The officials then assumed that no
           more time was charged to the grant than that percentage. As a result, there is no
           specific documentation showing the hours worked for the 2010 award. As of
           June 30, 2013, NDDES had not charged personnel expenses to the FYs 2011 and
           2012 SHSP awards.

           NDDES did not have standard operating procedures to ensure that personnel
           activity costs were claimed in accordance with Federal requirements. Without
           documentation indicating what grant activities employees worked on, there is no
           assurance that the time spent by employees was actually expended to further
           the purposes of the SHSP awards. Accordingly, the costs charged to the FY 2010
           SHSP award of $686,710 were considered questionable costs (see appendix F).

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Director, North Dakota’s Department of Emergency Services to:


www.oig.dhs.gov                                 11                                        OIG-14-90

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation #3:

           Establish and implement procedures to ensure compliance with Federal time
           reporting requirements for personnel costs charged to Federal awards by
           requiring employees to prepare activity reports, or develop a substitute system,
           to identify hours charged on Federal awards by activity.

           Recommendation #4:

           Document that personnel costs claimed for FY 2010 FEMA award were actually
           expended on SHSP activities and that activities were beneficial to the FEMA
           awards by providing documentation that adequately supports the $686,710
           questioned as valid charges to the FEMA award, or refund the amount not
           supported to FEMA.

           Management Comments and Auditor Analysis

           FEMA and State Responses to Recommendation #3: FEMA concurred with the
           recommendation. FEMA will require the Director of NDDES to establish and
           implement standard operating procedures to ensure compliance with 2 CFR §
           225, Cost Principles for State, Local, and Indian Tribal Governments. The standard
           operating procedures will require employees to prepare activity reports for
           personnel costs charged to Federal awards, or develop a substitute system to
           identify hours charged on Federal awards by activity. FEMA requested that the
           recommendation be considered resolved and open until the actions are
           implemented, with an estimated completion date of September 5, 2014.

           The State concurred with the recommendation. It will coordinate with FEMA to
           put in place a system compliant with 2 CFR § 225.

           Auditor Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation #3. The recommendation is resolved and will remain
           open until the proposed corrective action is fully implemented.

           FEMA and State Responses to Recommendation #4: FEMA concurred with the
           recommendation. FEMA will require the Director of NDDES to submit
           documentation on the questioned personnel costs for FEMA’s analysis and
           determination of allowability, and where warranted, recoupment of grant funds.
           FEMA requested that the recommendation be considered resolved and open
           until the actions are implemented, with an estimated completion date of
           September 5, 2104.

www.oig.dhs.gov                                12                                       OIG-14-90

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           The State did not concur with the recommendation, saying to agree with the
           recommendation would assume absolutely no individual work or management
           time was expended to implement any of the 2010 grant. NDDES assesses
           employee contributions to grant programs and properly charges the appropriate
           funding source. Documentation of personnel activities during this time period
           can be provided to FEMA.

           Auditor Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation #4. The recommendation is resolved and will remain
           open until the proposed corrective action is fully implemented.

           Timeliness of Expenditures

           NDDES’s rate of expenditures for SHSP awards showed that the grant funds were
           not being expended in a timely manner. At the end of the grant period, NDDES
           returned $80,148 of the 2010 SHSP award funds to FEMA. Because FEMA has
           shortened the grant period for the FY 2012 SHSP awards from 3 to 2 years,
           NDDES has more than $4 million of FYs 2011 and 2012 SHSP funding to spend by
           August 31, 2014. As a result, unless the expenditure of SHSP funding is
           accelerated, NDDES may have to return portions of its 2011 and 2012 SHSP
           awards to FEMA. The slow rate of expenditure of SHSP funds could result in a
           loss of opportunities for the State to enhance its capabilities to prevent, protect
           against, respond to, and recover from terrorist attacks, major disasters, and
           other emergencies.

           According to FEMA Grants Program Directorate Information Bulletin 379,
           extensions for periods of performance will require more information than in the
           past in order to obtain FEMA approval. For the FY 2012 SHSP funding, the period
           of performance was reduced from 3 years to 2 years. Therefore, the FY 2011 and
           FY 2012 grant funding must be expended by August 31, 2014.

           The following table shows the amount awarded, expenditures, and percentage
           of SHSP funds not spent for each of the three grant years included in the scope
           of our audit, as of June 30, 2013.




www.oig.dhs.gov                                13                                        OIG-14-90

                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Table 5: FY 2010-2012 SHSP Expenditures as of June 30, 2013 

                         Period of                  Expenditures                  Percent
            Grant                      Amount
                       Performance                      as of        Unspent     Unspent As
             Year                      Awarded
                         End Date                    6/30/2013                   of 6/30/13
             2010        7/31/13      $6,613,200      $6,347,296      $265,904         4%
             2011       8/31/14       $5,137,205     $3,063,639    $2,073,566        40%
             2012       8/31/14      $2,801,316        $648,356 $2,152,960           77%
           Source: Award and expenditure amounts provided by NDDES.

           Comparing the period of performance end date with the unspent amounts
           showed that the NDDES was not expending SHSP funds at a sufficient rate to
           expend all the funds by the end of the grant periods. For the FY 2010 SHSP
           award, NDDES deobligated and returned $80,148 of SHSP funds to FEMA.
           A comparison of the rate of expenditures for 2011 and 2012 identified that
           NDDES will need to expend SHSP funds at a greater rate than it had prior to June
           30, 2013 as shown above. With slightly more than a year remaining in the period
           of performance for both the 2011 and 2012 grants, the State must expend about
           40 percent of the 2011 grant funds and about 77 percent of the 2012 grant.

           Delays in grant fund expenditures can impede state and subgrantees’
           opportunities to enhance the most critical preparedness and response
           capabilities and result in reallocating of funding to lesser priorities to ensure
           funding does not expire. Spending funds in a relatively short period of time raises
           questions about whether the grant funds will be spent in an effective and
           efficient manner on projects and equipment that will best address the State’s
           homeland security needs. Finally, NDDES could lose the unexpended funds,
           possibly resulting in lost opportunities to protect the citizens of North Dakota
           from terrorism and disasters.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Director North Dakota Department of Emergency Services to:

           Recommendation #5:

           Develop and implement procedures, with appropriate internal controls, to
           ensure that SHSP grant funds are expended in a timely manner and within the
           grant period.



www.oig.dhs.gov                                14                                        OIG-14-90

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Management Comments and Auditor Analysis

           FEMA and State Responses to Recommendation #5: FEMA concurred with this
           recommendation. FEMA will require the Director of NDDES to develop and
           implement procedures, with appropriate internal controls, to ensure that SHSP
           grant funds are expended in a timely manner and within the grant period. FEMA
           requested that the recommendation be considered resolved and open until the
           actions are implemented, with an estimated completion date of September 5,
           2014.

           The State did not concur with the recommendation. According to the State, it
           already has procedures in place to ensure that SHSP grant funds are expended.
           As of March 27, 2014, 82 percent of the FY 2011 and almost 60 percent of the
           FY 2012 grants have been expended. Considering the nature of the grants, it is
           not practical to expect a defined amount of funds to be expended each month.
           At the local level, the Federal grant may not be included in the budget cycle that
           coincides with the receipt of the award which means personnel are not
           authorized to spend dollars until the following budget cycle.

           Auditor Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation #5. The recommendation is resolved and will remain
           open until the proposed corrective actions have been fully implemented.

           Property Management and Accountability

           NDDES subgrantees did not adhere to property management requirements
           prescribed by the Federal government. Additionally, NDDES did not have written
           policies and procedures to ensure that the property management accountability
           requirements were being implemented and maintained by its subgrantees. Of
           the 21 subgrantees we visited that had purchased equipment with SHSP funds,
           none had property management systems that complied with Federal
           requirements. As a result, NDDES had no assurance that property acquired with
           SHSP funding was being adequately accounted for, protected, and utilized for
           the purpose it was purchased.

           Equipment is defined by 44 CFR § 13.3, Definitions, as tangible, non-expendable,
           personal property having a useful life of more than one year and an acquisition
           cost of $5,000 or more per unit. Also, 44 CFR § 13.32(d)(1), Equipment, requires
           that property records be maintained that include the property’s cost,
           description, identification number, location, use, condition, and ultimate


www.oig.dhs.gov                                15                                        OIG-14-90

                                  OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           disposition. Equipment and supplies are considered personal property. Also
           required by 44 CFR § 13.32(d) (2), (3), are:

                  •	 a control system be developed to ensure adequate safeguards to prevent
                     loss, damage, or theft of equipment and other personal property
                     procured with Federal funds, and
                  •	 a physical inventory of the property be taken and the results reconciled
                     with the property records at least once every two years.

           Furthermore, 44 CFR § 13.20, Standards for financial management systems,
           requires that effective control and accountability be maintained for all personal
           property procured with Federal funds. Sensitive equipment that is portable, such
           as laptop computers and handheld radios, should be safeguarded even though
           the cost of the equipment might be less than the $5,000.

           The regulations also state that property records (including equipment) must be
           maintained that include:

                  •	   a description of the property,
                  •	   a serial number or other identification number,
                  •	   the source of property,
                  •	   who holds title,
                  •	   the acquisition date,
                  •	   the cost of the property,
                  •	   percentage of Federal participation in the cost of the property,
                  •	   the location,
                  •	   use and condition of the property, and
                  •	   any ultimate disposition data including the date of disposal and sale price
                       of the property.

           Our selected subgrantee visits disclosed that subgrantee property management
           records did not include all the asset tracking data elements required in 44 CFR
           § 13.32(d)(1). In addition, some of these subgrantees were unaware of the
           requirement to identify equipment items purchased with Federal grant funds or
           to maintain the required records.

           As shown in the table 6, of the 23 subgrantees and subrecipients visited, 2 did
           not purchase any equipment items, and 1 did not maintain an equipment
           inventory. Of the 21 who purchased equipment with SHSP funding, none had
           property management records in compliance with all of the Federal property

www.oig.dhs.gov                                    16                                  	     OIG-14-90

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           management requirements. Following is a summary of the noncompliances we
           noted at 21 of the 23 subgrantees we visited:

           Table 6: North Dakota Property Asset Control Shortcomings
            Subgrantees     Description of Noncompliant Element
                   20       Did not include all 10 required data elements
                   19       Did not identify items were purchased with Federal funds
                   17       Did not identify the acquisition date
                   11       Did not identify equipment cost
                    4       Did not identify the location of the equipment
                    6       Did not identify equipment serial numbers
                    1       Did not maintain an equipment inventory list
           Source: Subgrantee visits by Foxx & Company auditors.

           NDDES officials told us that property management control requirements were
           provided as a part of the accompanying subgrantee award documentation.
           However, a review of the NDDES notice of grant award simply stated that
           Federal and state regulations must be met and the subgrantee must be in
           compliance with Office of Management and Budget (OMB) A-133 guidelines.
           There were no specific property management control requirements that
           accompanied the subgrantee awards for FYs 2010-12.

           In addition, the absence of written policies and procedures that specify Federal
           property management controls limited followup actions with subgrantees to
           verify that assets were recorded and protected. Also, the limited NDDES staff
           available for conducting subgrantee monitoring site visits contributed to the
           noncompliance with Federal property management requirements. As a result,
           NDDES and its subgrantees did not have reasonable assurance that property
           purchased with Federal grant funds was being adequately identified and
           safeguarded to prevent loss, damage, or theft.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Director, North Dakota Department of Emergency Services to:

           Recommendation #6:

           Develop property management procedures to ensure compliance with Federal
           property management requirements and incorporate the property management


www.oig.dhs.gov                                 17                                      OIG-14-90

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           requirements in the notice of grant awards special conditions section of the
           awards.

           Recommendation #7:

           Ensure that all subgrantees have adequate property management systems that
           comply with Federal requirements for equipment purchased with Federal funds.

           Management Comments and Auditor Analysis

           FEMA and State Responses to Recommendations #6: FEMA concurred with the
           recommendation. FEMA will require the Director of NDDES to develop property
           management procedures to ensure compliance with Federal property
           management requirements. FEMA will also require NDDES to incorporate the
           property management requirements contained in 44 CFR § 13.32 Equipment in
           the notice of grant awards special conditions section of its subawards. FEMA
           requested that the recommendations be considered resolved and open until the
           actions are implemented, with an estimated completion date of September 5,
           2014.

           The State concurred with the recommendation. NDDES has developed a grant
           closure procedure that requires the subgrantee to submit a property record with
           all of elements mandated under 44 CFR § 13.32. Property management
           requirements have always been part of the notice of grant award. As of February
           2014, once property records are returned to NDDES, the subgrantee is provided
           stickers to place on equipment identifying that it was purchased with SHSP
           funds.

           Auditor Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation #6. The recommendation is resolved and will remain
           open until the proposed corrective actions are fully implemented.

           FEMA and State Responses to Recommendation #7: FEMA concurred with the
           recommendation. FEMA will require the Director of NDDES to ensure that all
           subgrantees have adequate property management systems that comply with
           Federal requirements for equipment contained in 44 CFR § 13.32. FEMA
           requested that the recommendation be considered resolved and open until the
           actions are implemented, with an estimated completion date of September 5,
           2014.



www.oig.dhs.gov                               18                                          OIG-14-90

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           The State concurred with the recommendation. According to NDDES, it has
           incorporated a review of the local property management procedures into the on-
           site monitoring form.

           Auditor Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation #7. The recommendation is resolved and will remain
           open until the proposed corrective actions are fully implemented.

           Subgrantee Monitoring

           The NDDES did not adequately monitor subgrantee activities for the FYs 2010-12
           DHS grants. Although NDDES had written procedures for subgrantee monitoring,
           it only performed a small number of subgrantee visits during our audit period.
           Also, there was only one person permanently assigned to perform subgrantee
           monitoring. As a result, NDDES did not have assurances that the subgrantees
           were in compliance with Federal requirements and that the subgrantees were
           efficiently and effectively using SHSP grant funds to accomplish program
           objectives.

           According to 44 CFR § 13.40, Monitoring and reporting program performance,
           grantees are required to (1) provide day-to-day management of all grants and
           subgrant supported activities and (2) assure that subgrantees comply with
           applicable Federal requirements and achieve program performance goals. The
           regulations also specify that the grantees’ monitoring programs must cover each
           program, function, or activity, and require subgrantees to adhere to the same
           performance monitoring and reporting standards as required of grantees.

           Office of Management and Budget Circular A-133, Part 3-M also includes grantee
           monitoring requirements. Part 3-M states that grantees are responsible for
           monitoring subgrantee’s use of Federal awards through reporting, site visits,
           regular contact, or other means to provide reasonable assurance that the
           subgrantee administers Federal awards in compliance with laws, regulations, and
           the provisions of contracts or grant agreements and those performance goals are
           achieved.

           According to the NDDES’s grant Program and Fiscal Review Policy, grant
           monitoring site visits will be conducted for 1/3 of the grant recipients each year,
           and all subgrantees are to be covered over a 3-year period. A typical site visit is a
           1-day visit in a community, and a normal site visit trip that includes multiple
           counties is set up for 3 days. One month before the site visit, NDDES personnel
           pull the grant awards and conduct a quick review of the award. NDDES then
www.oig.dhs.gov                                 19                                         OIG-14-90

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           notifies the subgrantee of the impending visit. During the site visit, a Program &
           Fiscal Review Procedures’ checklist is completed. A review of the subgrantee’s
           grant files is conducted, where a percentage of equipment items are selected
           and the supporting documentation is checked.

           The following table shows the NDDES grant monitoring schedule of completed
           site visits for calendar years 2010 through 2013.

           Table 7: Assessment of NDDES Grant Monitoring Site Visits
                                                                                Number of Additional
                  Calendar    Site Visits Completed        Number of Counties
                                                                                  First Responders
                    Year          (1-week/visit)               Visited
                                                                                        Visited
                   2010                2                           2                      21
                   2011                0                           0                     0
                   2012                1                           4                    11
                   2013                1                           3                    10
                Totals               4                     9                            42
           Source: NDDES’s schedule of completed grant monitoring site visits.

           Our assessment of the site visit schedule disclosed the following:

                  •	 the schedule showed that only four 1-week site visits have occurred
                     between 2010 and 2013;
                  •	 a total of 9 out of the 53 counties were included in the 4 site visits;
                  •	 an additional 42 subgrantee and subrecipient (city and county agencies
                     considered first responders) grant files were reviewed; and
                  •	 there were no site visits made during calendar year 2011.

           This schedule did not include any of the 23 subgrantees we selected for our site
           visits. Since we selected the largest entities in our sample, it was unusual that
           none of the sites were monitored given the amount of SHSP funding received by
           the jurisdictions we visited. We also noted that some subgrantees were visited,
           but not scheduled.

           We reviewed checklists for the completed NDDES grant monitoring site visits.
           Documentation areas covered on the checklist include: revenue,
           reimbursements, payments, payroll, equipment, asset management,
           procurement, and grant administration. This checklist was revised in February
           2013, where asset management was added. The checklist comments completed
           for the monitoring visits were general statements and did not have specific

www.oig.dhs.gov                                       20                                  	     OIG-14-90

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           information to answer the section headings. With regard to asset management,
           there were no specifics reported on what was checked during the site visits.
           Comments such as “city or county maintains inventory listing” does not identify
           the contents of the listing, or if equipment items were purchased with SHSP
           funding. As for procurement reviews, it appears that the only review made was
           to see if the subgrantee had a written procurement policy, not to check how
           equipment items were procured. While a checklist was completed for all of the
           NDDES subgrantee visits performed, no summary reports were generated that
           would identify similarities or dissimilarities found. The reports we reviewed had
           no findings identified.

           According to an NDDES official, because of the state geography, travel to
           subgrantee locations in the winter months and the unavailability of subgrantees
           during spring flooding makes monitoring visits difficult considering the number
           of NDDES staff available. The staff assigned to perform subgrantee monitoring
           was limited to one full-time employee with periodic help of another employee.
           With this limited staff, the schedule for site visits appeared to be a very
           ambitious plan to accomplish in a short amount of time.

           In the absence of adequate subgrantee monitoring visits, NDDES was not fully
           aware of the extent that its subgrantees adhered to Federal requirements and
           grant guidelines or achieved DHS and state programmatic goals and objectives.
           NDDES was unable to obtain first-hand knowledge of specific subgrantee
           administrative problems and issues due to an ineffective on-site subgrantee
           monitoring program.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Director, North Dakota Department of Emergency Services to:

           Recommendation #8:

           Assess the protocol for monitoring subgrantees to include:
              •	 reviewing the performance monitoring checklist for evaluating
                  subgrantee compliance with Federal requirements, such as procurement
                  and equipment inventories, and
              •	 determining criteria and methodologies for assessing subgrantee 

                  efficiency and effectiveness in accomplishing program objectives. 




www.oig.dhs.gov                                21                                 	     OIG-14-90

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation #9:

           Implement the procedures for subgrantee monitoring that was revised in 2013
           and determine whether the procedures need to be more specific.

           Recommendation #10:

           Consider allocating more resources to subgrantee monitoring in order to meet
           the NDDES requirement of completing site visits for all subgrantees over a 3-year
           period.

           Management Comments and Auditor Analysis

           FEMA and State Responses to Recommendation #8: FEMA concurred with the
           recommendation. FEMA will require the Director of NDDES to assess the
           protocol for monitoring subgrantees. The assessment would include reviewing
           the performance monitoring checklist for evaluating subgrantee compliance with
           Federal requirements such as procurement and equipment inventories. The
           assessment would also include determining criteria and methodologies for
           assessing subgrantee efficiency and effectiveness in accomplishing program
           objectives. FEMA requested that the recommendation be considered resolved
           and open until the actions are implemented, with an estimated completion date
           of September 5, 2014.

           The State concurred with the recommendation. According to the State, the
           monitoring form has already been reviewed and updated. For years, subgrantees
           have completed quarterly progress reports that provide NDDES with subgrantees
           status for accomplishing program objectives.

           Auditor Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation #8. The recommendation is resolved and will remain
           open until the proposed corrective actions are fully implemented.

           FEMA and State Responses to Recommendation #9: FEMA concurred with the
           recommendation. FEMA will require the Director of NDDES to implement the
           procedures for subgrantee monitoring that was revised in 2013, and determine
           whether the procedures need to be more specific. FEMA requested that the
           recommendation be considered resolved and open until the actions are
           implemented, with an estimated completion date of September 5, 2014. The
           State concurred with the recommendation and said the procedures have been
           implemented.

www.oig.dhs.gov                               22                                       OIG-14-90

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Auditor Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation #9. The recommendation is resolved and will remain
           open until FEMA validates that the proposed corrective actions have been fully
           implemented.

           FEMA and State Responses to Recommendation #10: FEMA concurred with the
           recommendation. FEMA will require the Director of NDDES to consider allocating
           more resources to subgrantee monitoring in order to meet the NDDES
           requirement of completing site visits for all subgrantees over a 3-year period.
           FEMA requested that the recommendation be considered resolved and open
           until the actions are implemented, with an estimated completion date of
           September 5, 2014.

           The State concurred with the recommendation. The State said it does not have
           sufficient funding to hire additional personnel to conduct site visits for more
           than one third of the subgrantees per year. According to the State, a schedule
           has been developed to ensure the visits occur. Desk monitoring is conducted for
           subgrantees upon the receipt of a reimbursement request and subgrantees
           submit quarterly progress reports.

           Auditor Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation #10. The recommendation is resolved and will remain
           open until the proposed corrective actions are fully implemented.




www.oig.dhs.gov                               23                                      OIG-14-90

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security Office of Inspector General was established by
   the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
   General Act of 1978. This is one of a series of audit, inspection, and special reports
   prepared as part of our oversight responsibilities to promote economy, efficiency, and
   effectiveness within the Department.

   This report provides the results of our work to determine whether North Dakota spent
   SHSP grant funds (1) effectively and efficiently, and (2) in compliance with applicable
   Federal laws and regulations. We also addressed the extent to which funds enhanced
   the State’s ability to prevent, prepare for, protect against, and respond to natural
   disasters, acts of terrorism, and other manmade disasters.

   The HSGP and its five interrelated grant programs fund a range of preparedness
   activities, including planning, organization, equipment purchase, training, exercises, and
   management and administration costs. However, only SHSP funding, equipment, and
   supported programs were reviewed for compliance. The scope of the audit included the
   SHSP grant awards for FYs 2010, 2011, and 2012. The HSGP awards to North Dakota for
   FYs 2010 through 2012 are included in table 8.

   Table 8: Homeland Security Grant Program Funding
                               Homeland Security Grant Program
                                     FYs 2010 through 2012

           Funded Activity           FY 2010        FY 2011       FY 2012          Total
   State Homeland Security
                                     $6,613,200     $5,137,205    $2,801,316     $14,551,721
   Program
   Operation Stonegarden              $548,913       $526,949       $499,407      $1,575,269

   Citizen Corps Program              $109,174        $87,348               $0     $196,522

   Grand Total                       $7,271,287     $5,751,502    $3,300,723     $16,323,512
   Source: FEMA

   We reviewed the plans developed by North Dakota to improve preparedness and respond
   to all types of hazards, the goals set within those plans, the measurement of progress
   toward the goals, and the assessments of performance improvement that result from
   this activity. We also reviewed the notice of grant award documents awarded to
   subgrantees to determine if the awards were made within the 45 day timeframe.
www.oig.dhs.gov                                24                                          OIG-14-90

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   We visited the designated state administrative agency and the recipients of FYs 2010
   through 2012 grant funds. The recipients/subgrantees included:

           State Agencies:
               • Department of Agriculture
               • Fusion Center
               • League of Cities
               • North Dakota Department of Emergency Services

           Counties:
              • Burleigh
              • Cass
              • Grand Forks
              • Morton
              • Sioux
              • Stutsman
              • Ward
              • Williams

           First Responders:
               • Bismarck Fire Department
               • Cass County Sheriff
               • City of Fargo Fire Department
               • City of West Fargo Police Department
               • Grand Forks Fire Department
               • Grand Forks Sheriff
               • Jamestown Fire Department
               • Minot Fire Department
               • Morton County Sheriff
               • Stutsman County Sheriff

           Native American Tribe
               • Standing Rock Sioux Tribe

   At each location, we interviewed responsible officials, reviewed documentation
   supporting state and subgrantee management of grant funds, and physically inspected a
   sample of the equipment procured with the grant funds. We met with representatives
   of 10 first responder organizations such as fire, police, and emergency medical services
   to discuss the grant process, and the benefits the grant funds have brought to their
   organization and communities.

www.oig.dhs.gov                              25                                       OIG-14-90

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   In accordance with the audit guide provided by the DHS OIG, Foxx & Company auditors
   met with FEMA officials and conducted reviews and interviews at FEMA Headquarters at
   the beginning of the audit and, as needed, during the audit. The FEMA officials provided
   important background information and key documentation concerning North Dakota’s
   management and expenditure of the SHSP grants.

   We conducted this performance audit between July 2013 and January 2014 pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.

   Although this audit included a review of costs claimed, we did not perform a financial
   audit of those costs. This was a performance audit as defined by Chapter 2 of the
   Standards, and included a review and report of program activities with a compliance
   element. Foxx & Company was not engaged to and did not perform a financial
   statement audit, the objective of which would be to express an opinion on specified
   elements, accounts, or items. Accordingly, Foxx & Company was neither required to
   review, nor express an opinion on, the costs claimed for the grant programs included in
   the scope of the audit. Had Foxx & Company been required to perform additional
   procedures, or conducted an audit of the financial statements in accordance with
   generally accepted auditing standards, other matters might have come to their
   attention that would have been reported. This report relates only to the programs
   specified and does not extend to any financial statements of North Dakota.

   While the audit was performed and the report prepared under contract, the audit
   results are being reported by the DHS OIG to appropriate FEMA and North Dakota
   officials.




www.oig.dhs.gov                              26                                       OIG-14-90

                   OFFICE OF INSPECTOR GENERAL
                     Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report




www.oig.dhs.gov                  27                    OIG-14-90

                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                28                    OIG-14-90

                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                29                    OIG-14-90

                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                30                    OIG-14-90

                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                31                    OIG-14-90

                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                32                    OIG-14-90

                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                33                    OIG-14-90

                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                34                    OIG-14-90

                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                35                    OIG-14-90

                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                36                    OIG-14-90

                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                37                    OIG-14-90

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix C
   Description of the Homeland Security Grant Program
   The HSGP provides Federal funding to help state and local agencies enhance capabilities
   to prevent, deter, respond to, and recover from terrorist attacks, major disasters, and
   other emergencies. The HSGP encompasses several interrelated Federal grant programs
   that together fund a range of preparedness activities, including planning, organization,
   equipment purchase, training, and exercises, as well as management and administration
   costs. Programs include the following:

   •	 The State Homeland Security Program provides financial assistance directly to each
      of the states and territories to prevent, respond to, and recover from acts of
      terrorism and other catastrophic events. The program supports the implementation
      of the state homeland security strategy to address identified planning, equipment,
      training, and exercise needs.

   •	 The Urban Areas Security Initiative provides financial assistance to address the
      unique planning, equipment, training, and exercise needs of high-risk urban areas,
      and to assist in building an enhanced and sustainable capacity to prevent, respond
      to, and recover from threats or acts of terrorism and other disasters. Allowable costs
      for the urban areas are consistent with the SHSP. Funding is expended based on the
      urban area homeland security strategies.

   The HSGP also includes other interrelated grant programs with similar purposes.
   Depending on the fiscal year, these programs include the following:

   •	 Metropolitan Medical Response System
   •	 Citizen Corps
   •	 Operation Stonegarden




www.oig.dhs.gov                               38                                	      OIG-14-90

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix D
   North Dakota Department of Emergency Services
   Organization Chart


                                        The Adjutant General
                                                 (Director)


                                           Deputy Director
                                       Department of Emergency
                                             Services and
                                          Homeland Security
                                               Director




                            Public Information
                                  Officer




                                 Geographic
     Operations and Plans                                 Homeland Security   Disaster Recovery
                            Information Systems
            Chief                                           Grant Chief             Chief
                                   Chief




www.oig.dhs.gov                                    39                                      OIG-14-90

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix E
   Threat and Hazard Identification and Risk Assessment
   The National Preparedness System establishes the process to define and achieve specific
   capability targets and meet the National Preparedness Goal. One of the six components
   of the National Preparedness System includes identifying and assessing risk. The THIRA
   provides a comprehensive approach for identifying and assessing risks and associated
   impacts, using the core capabilities identified in the National Preparedness Goal and
   employing the following five-step process:

       1.	 Identify threats and hazards;
       2.	 Give threats and hazards context (assess vulnerability, how affects the community);
       3.	 Examine core capabilities using the threats and hazards (estimate consequences,
           impacts to the community);
       4.	 Set capability targets; and
       5.	 Apply the results (use results for planning and preparedness activities, identify
           means to deliver target level of capability).

   THIRA submission is required of all 56 states and territories receiving HSGP and
   Emergency Management Performance Grant funds and 31 eligible urban areas. The first
   THIRA submission was due December 31, 2012. Subsequent submissions will be an
   annual performance requirement for FEMA preparedness grant awards.

   In addition to the THIRA, states and territories receiving FEMA preparedness grants are
   required to annually submit a state preparedness report. FEMA officials state that THIRA
   results and the state preparedness report will provide a quantitative summary of
   preparedness, document current capabilities and potential shortfalls, and set priorities
   for addressing shortfalls. FEMA officials also state that the state preparedness report
   results will be used by the states to identify funding requirements and set priorities for
   subgrantee project applications. The grant application (investment justification) must
   demonstrate how proposed projects address gaps and deficiencies in delivering one or
   more core capabilities outlined in the National Preparedness Goal, and as FEMA officials
   state, address capability gaps reported in the state preparedness report.

   FEMA officials said that the FY 2013 HSGP funding announcement will require applicants
   to map proposed investments to specific core capabilities and capability gaps identified
   in the state preparedness reports, linking investments to actions that build and sustain
   capabilities aligned with the National Preparedness Goal.



www.oig.dhs.gov                               40                                 	      OIG-14-90

                             OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix F
   Potential Monetary Benefits
                              Classification of Monetary Benefits
                                                    Questioned
                                        Funds To                    Questioned
                              Rec.                     Costs –
             Finding                    Be Put to                    Costs –      Total
                               No.                  Unsupported
                                       Better Use                     Other
                                                        Costs


    Personnel Time Charges    3&4          $0          $686,710          $0      $686,710


    Total                                  $0          $686,710          $0      $686,710
   Source: Foxx & Company





www.oig.dhs.gov                               41                                      OIG-14-90

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix G
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  42                        OIG-14-90

ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
